Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     FDA WARNING LETTERS
     Timeliness And Effectiveness




                   JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 1999
                      OEI-09-97-00381
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco Regional Office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Brad Rollin, Project Leader                             Elise Stein, Program Specialist

Robert Gibbons, Program Analyst                         Barbara Tedesco, Mathematical Statistician

Scott Hutchison, Program Analyst

Don Loeb, Program Analyst

Steven Zerebecki, Program Analyst



     To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                         EXECUTIVE                     SUMMARY

PURPOSE

          To determine how the Food and Drug Administration (FDA) uses warning letters and the
          extent to which they result in timely compliance with Federal laws and regulations.


BACKGROUND

          The FDA is the Federal agency charged with enforcing the Federal Food, Drug, and

          Cosmetic Act and several related laws. At the headquarters level, FDA primarily is

          comprised of five centers and the Office of Regulatory Affairs. The Office of Regulatory

          Affairs coordinates FDA's compliance activities and oversees the activities of FDA's 

          5 regional offices, 20 district offices, and 130 resident posts.


          The FDA's district offices and resident posts conduct almost all inspections of the firms

          that FDA regulates. When investigators find objectionable conditions, they are required to

          provide the firm with their findings using form FDA-483. If violations uncovered during

          an inspection meet a threshold of “regulatory significance,” FDA also may issue a warning

          letter. Both FDA centers and district offices issue warning letters, depending on the type

          of firm and violation. Some warning letters issued by the district office require

          headquarters review and approval. The warning letter generally represents FDA's first

          official notification that it has found one or more products, practices, processes, or other

          activities that are in violation of the Food, Drug, and Cosmetic Act. The warning letter

          affords firms the opportunity to voluntarily correct violations prior to the initiation of

          formal enforcement action.


          In fiscal year 1997, FDA issued 1,175 warning letters. This reversed a trend during which

          the number of warning letters decreased 36.2 percent from 1994 (1,626) to 

          1996 (1,037). District offices issue approximately 80 percent of all warning letters.


          The General Accounting Office raised concerns about how FDA uses warning letters in

          two 1997 studies. Based on their findings, we determined that this inspection was

          warranted. We conducted on-site reviews at a stratified random sample of six district

          offices. At each district office, we reviewed warning letter and establishment files and

          tracked the outcome of all warning letters issued during fiscal year 1996. We also

          conducted interviews with FDA headquarters, all district offices, and 24 firms that

          received warning letters during 1996.





Warning Letters--Timeliness and Effectiveness      1                                  OEI-09-97-00381
FINDINGS

Warning letters are an effective compliance tool

          When FDA conducts follow-up activities, it finds that firms have either corrected the
          violations cited in warning letters or have made significant progress toward doing so.
          Almost 90 percent of firms respond in writing to warning letters within 15 days of
          receiving them, detailing corrective actions that they intend to take.

The warning letter’s effectiveness depends on conscientious follow-up

          The FDA completes appropriate follow-up in approximately 97 percent of cases. Follow-
          up may involve reinspecting the firm, soliciting documentation of corrections, or meeting
          with the firm to address compliance issues. In other cases, FDA does not need to follow
          up except to ensure that the firm responds to the warning letter. Follow-up inspections
          frequently uncover other violations, but FDA rarely has to initiate compliance actions. On
          average, follow-up inspections take place more than 9 months after the warning letter is
          issued.

Warning letters are not always timely

          Headquarters rarely reviews and concurs with warning letter recommendations within
          FDA’s 15-day guideline. Even when headquarters review is not required, district offices
          frequently take more than a month to issue a warning letter.

Discrepancies between headquarters and district office data on warning letters
are extensive

          Almost 20 percent of the warning letters in the district offices are not accounted for in the
          headquarters database. Conversely, 16 percent of the warning letters in the headquarters
          database do not appear in the district offices’ files.

RECOMMENDATION

          The warning letter is an effective tool in motivating firms to comply with Federal laws and
          regulations. To increase its effectiveness, FDA should (1) improve the timeliness of the
          warning letter process and follow-up activities and (2) revamp its warning letter data
          collection system to ensure accuracy.

AGENCY COMMENTS

          We received comments on the draft report from FDA in which the agency concurred with
          our recommendation. Where appropriate, we have made revisions in the report in

Warning Letters--Timeliness and Effectiveness       2                                  OEI-09-97-00381
          response to these comments. We also have responded to several of FDA’s comments in
          the appendix.



This report is the one of two reports on the FDA warning letter process. A companion report,
“FDA Warning Letters: Trends and Perspectives” (OEI-09-97-00380), determined (1) why the
number of warning letters has decreased in recent years, (2) what accounts for variations in
district office warning letters, and (3) how firms view the warning letter process.




Warning Letters--Timeliness and Effectiveness   3                              OEI-09-97-00381
                          TABLE                        OF              CONTENTS

                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Warning letter effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          FDA follow-up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Timeliness of the warning letter process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Discrepancies in warning letter databases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


A:        Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


B:        OIG response to agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





Warning Letters--Timeliness and Effectiveness                      4                                              OEI-09-97-00381
                                      INTRODUCTION

PURPOSE

          To determine how the Food and Drug Administration (FDA) uses warning letters and the
          extent to which they result in timely compliance with Federal laws and regulations.


BACKGROUND

The Food and Drug Administration

          The Food and Drug Administration (FDA) within the Department of Health and Human
          Services is the Federal agency charged with enforcing the Federal Food, Drug, and
          Cosmetic Act and several related laws. At the headquarters level, FDA primarily is
          comprised of five centers and the Office of Regulatory Affairs.1 The five centers are:

            <       Biologics Evaluation and Research
            <       Drug Evaluation and Research
            <       Devices and Radiological Health
            <       Food Safety and Applied Nutrition
            <       Veterinary Medicine

          Each center promulgates regulations, oversees the review and approval for the marketing
          of new products, develops policy and compliance standards for regulated industries, and
          undertakes other initiatives to ensure the safety and effectiveness of products under FDA's
          purview. The Office of Regulatory Affairs coordinates FDA's compliance activities and
          oversees the activities of FDA's 5 regional offices, 20 district offices, and approximately
          130 resident posts.

On-site Inspections

          Staff from FDA's district offices and resident posts conduct almost all inspections of the
          firms that FDA regulates.2 Section 702(a) of the Food, Drug, and Cosmetic Act
          authorizes FDA to conduct inspections to enforce the provisions of that statute as well as
          other applicable laws. Inspections focus on manufacturing, laboratory, production, and/or


  1
    The FDA also operates the National Center for Toxicological Research in Jefferson, Arkansas and the
Engineering and Analytical Center in Winchester, Massachusetts.
  2
     The FDA contracts with State agencies to conduct some inspections, and headquarters staff sometimes
participate in inspections of foreign or domestic firms.

Warning Letters--Timeliness and Effectiveness          5                                     OEI-09-97-00381
          storage processes but may include examining a firm's administrative practices and controls
          as well as collecting samples, labels, and promotional materials.

          The FDA requires investigators to follow a standard protocol when conducting an
          inspection. Upon arriving at a facility, investigators issue a Notice of Inspection (Form
          FDA-482) to the top management official. The scope of the inspection generally is
          determined by the type of facility being inspected, the firm's history, general knowledge
          about the industry and its problems, and conditions found as the inspection progresses.

          Investigators are authorized to collect samples or other physical evidence while
          conducting inspections. Examples include food, drugs, devices, or cosmetics. Samples
          also may include evidence of violative conditions, such as rodent droppings or any other
          evidence of noncompliance with Federal laws and regulations.

          When investigators find objectionable conditions, they are required to provide the top
          management official with their findings on an Inspectional Observations form (Form FDA-
          483). The FDA-483 should include any observed problems with the facility, equipment,
          processes, controls, products, employee practices, or records. Some examples of
          reportable observations include:

           <        filthy, putrid, or decomposed substances, unsanitary conditions, or evidence of
                    contamination;
           <        careless handling of rodenticides or pesticides;
           <        results of field tests that reveal adulteration;
           <        observations of faulty manufacturing, processing, packaging, or holding of food,
                    drug, or device products as related to Good Manufacturing Practice regulations;3
                    and
           <        observations indicating noncompliance with medical device reporting
                    requirements.

          Some observations require that action be taken by the centers only. The FDA's
          Investigations Operations Manual instructs investigators to not report observations related
          to most labeling issues, promotional materials, the classification of a cosmetic or device as
          a drug, or the classification of a drug as a new drug on the FDA-483. These issues are
          referred to the centers for compliance action.




  3
     The Good Manufacturing Practice regulations specify FDA's expectations as to how firms should operate in
manufacturing products regulated by the FDA. The regulation includes provisions related to personnel, quality
control, facility design and maintenance, equipment, internal controls, production and process controls, packaging
and labeling, storage and distribution, laboratory process, and reports and record keeping.

Warning Letters--Timeliness and Effectiveness           6                                       OEI-09-97-00381
Warning Letters

          What is a warning letter? The warning letter generally represents FDA's first official
          notification to a firm or individual that FDA has found that one or more products,
          practices, processes, or other activities are in violation of the Food, Drug, and Cosmetic
          Act. The warning letter affords firms the opportunity to voluntarily take corrective action
          prior to the initiation of formal enforcement action.

          The FDA is not required by law to warn firms or individuals that they are in violation of
          the law prior to initiating a formal regulatory action.4 The FDA believes, however, that:

                    ...documentation of notice of violative conduct strengthens the agency's
                    position in regulatory actions by establishing that responsible individuals
                    continued violative conduct despite warnings by the agency.5

          Who issues warning letters, and what time frames exist? The FDA centers and district
          offices issue warning letters. In general, district offices issue warning letters to domestic
          firms based on inspections. Some centers issue warning letters for advertising and
          promotional violations or to foreign firms that market products in the United States.
          Others, such as the Center for Veterinary Medicine, issue few or no warning letters at all.

          At the district office level, although some warning letters can be issued at the discretion of
          the district director without center or other headquarters review or concurrence, FDA's
          Regulatory Procedures Manual lists numerous specific program area violations that
          require review by the appropriate center. The Regulatory Procedures Manual also states
          that when a warning letter is warranted, a district office should issue it to the firm or
          submit a recommendation for headquarters review within 15 days of the end of the
          inspection. When center review is required, centers are supposed to review and approve
          the issuance of a warning letter within 15 days of receipt. If a center disagrees with a
          warning letter recommendation, it must provide a justification to the district office within
          30 days.

          The following table illustrates how many warning letters the centers and district offices
          issued from fiscal years 1994 to 1997. The district office tally includes all warning letters
          sent under district directors' signatures, including those that underwent center review:




   4
     One exception to this statement is a requirement that when acting under the authority of the Radiation Control
for Health and Safety Act, FDA is required by law to provide a written notification to manufacturers when the
agency discovers products that fail to comply with a performance standard or that contain a radiation safety defect.
  5
      FDA Regulatory Procedures Manual, Chapter 10, Subchapter — Prior Notice.

Warning Letters--Timeliness and Effectiveness            7                                       OEI-09-97-00381
                                   District offices annually issue approximately
                                         80 percent of all warning letters

                         Year            Total   District office-issued    Center-issued
                         1994            1,626      1,282 (78.8%)          344 (21.2%)

                         1995            1,501      1,175 (78.3%)          326 (21.7%)
                         1996            1,037        841 (81.1%)          196 (18.9%)

                         1997            1,175      1,003 (85.4%)          172 (14.6%)

          In fiscal year 1997, FDA issued 1,175 warning letters. This reversed a trend during which

          the number of warning letters decreased 36.2 percent from 1994 (1,626) to 

          1996 (1,037). More warning letters are issued for devices and radiological products than

          for any of FDA's other product areas. In fact, from 1994 to 1997, the Center for Devices

          and Radiological Health issued more warning letters than any district office. The district

          offices issuing the most letters in 1997 were San Francisco (96), Florida (88), and Dallas

          (74). The district offices issuing the fewest warning letters in 1997 were Boston (16),

          Detroit (19), and Nashville (20).


          What does a warning letter say? The warning letter instructs the firm to correct the

          issues noted and to respond in writing within 15 days of receipt of the letter. District

          offices coordinate with the appropriate center to determine whether a firm's response to a

          warning letter is adequate. If the district or appropriate center deems the firm's response

          adequate, it will notify other appropriate agency units. This may require a reinspection of

          the firm.


          The FDA issues warning letters for regulatory violations, not for violations of

          nonregulatory guidance documents. It states that "the threshold for determination of what

          constitutes 'regulatory significance' is that failure to adequately and promptly achieve

          correction to the warning letter may be expected to result in enforcement action."


Follow-up and Subsequent Compliance Actions

          The FDA’s Regulatory Procedures Manual states that the district offices and/or centers
          should verify that corrections have been achieved. This generally involves conducting a
          follow-up inspection. If more appropriate, however, districts may require that a firm
          document corrections or may undertake educational efforts with the firm to address the
          issues. Continued noncompliance can result in administrative or regulatory actions.
          Administrative actions include detentions, civil penalties, and requesting voluntary recalls.




Warning Letters--Timeliness and Effectiveness            8                                 OEI-09-97-00381
          Regulatory actions include license revocations, license suspensions, citations,
          prosecutions, judicial civil penalties, injunctions, and seizures.6

Related Work

          The General Accounting Office (GAO) issued two studies in 1997 that questioned the
          consistency of FDA's inspection and compliance activities:

              <	    In "Blood Supply: FDA Oversight and Remaining Issues of Safety"
                    (GAO/PEMD-97-1, February 1997), GAO found that FDA issued warning letters
                    to blood suppliers inconsistently. The GAO also reported that some inspections
                    yielded multiple FDA-483 observations but did not result in a warning letter, while
                    other inspections with relatively few or minor observations resulted in the issuance
                    of a warning letter.

              <	    In "FDA Mammography Inspections: While Some Problems Need Attention,
                    Facility Compliance is Growing" (GAO/HEHS-97-25, January 1997),
                    GAO questioned the consistency of inspectors who used different criteria in citing
                    mammography facilities. The GAO stated that FDA's monitoring and enforcement
                    process did not ensure timely correction of deficiencies in these facilities. The
                    GAO also noted that FDA district offices needed better information systems to
                    manage inspections.

          Based on GAO’s concerns, we determined that this inspection was warranted.


METHODOLOGY

On-site Warning Letter Tracking

          We conducted on-site reviews at six district offices. We selected a stratified random
          sample of district offices to conduct the on-site fieldwork:

                         Number of warning letters         Number of
                                                                                Sample size
                           issued during 1996            district offices

                                Fewer than 27                   7                     2

                                    28 to 54                    10                    2

                                 More than 54                   4                     2


          6
           FDA has recall authority only for infant formula, human tissue, and certain medical devices. Recalls of
other products are voluntary. License suspensions and revocations are regulatory actions taken for biologicals.

Warning Letters--Timeliness and Effectiveness           9                                      OEI-09-97-00381
          At each district office, we reviewed warning letter and establishment files. We tracked the
          outcome of all warning letters issued by the district office during fiscal year 1996 to
          determine whether FDA conducted follow-up inspections where appropriate and whether
          the firm had sufficiently addressed the issues noted in the warning letter. We projected
          our findings to the universe of district offices to assess the overall effectiveness of warning
          letters.

Interviews with FDA and Regulated Firms

          We conducted either in-person or telephone interviews with each district office. We asked
          district office staff about their organizational structure, their experiences with warning
          letters, the factors that contributed to their increase or decrease in warning letters, and the
          responsiveness of the centers to their warning letter recommendations. We also
          interviewed staff from FDA headquarters, analyzed inspection and warning letter trends,
          and reviewed FDA’s Regulatory Procedures Manual.

          We selected a simple random sample of 40 firms that received warning letters during fiscal
          year 1996 and completed telephone interviews with 24 of them. The remaining firms did
          not return phone calls or had gone out of business. We asked firms about the violations
          that resulted in the warning letter and their experiences with FDA.



This report is the one of two reports on the FDA warning letter process. In a companion report,
“FDA Warning Letters: Trends and Perspectives” (OEI-09-97-00380), we found that changes
in FDA policies and practices and better industry compliance have contributed to decreases in
warning letters since 1994. Despite the existence of clear warning letter guidance, differences in
district office attitudes, experience, and the types of firms in the district affect warning letter
volume. Firms would like to better understand the warning letter process and suggested some
minor changes. With some exceptions, firms were satisfied with FDA’s customer service during
the warning letter process.




Warning Letters--Timeliness and Effectiveness       10                                  OEI-09-97-00381
                                                FINDINGS

Warning letters are an effective compliance tool
          When FDA conducts follow-up activities, it finds that firms have either corrected the
          violations cited in warning letters or have made significant progress toward doing so.
          Firms take warning letters very seriously. Almost 90 percent of firms respond in writing
          to warning letters within 15 days of receiving them, detailing corrective actions that they
          intend to take. The following examples describe the effect that warning letters have on
          firm compliance with FDA laws and regulations:

           <	       A district office issued a warning letter to a firm for inadequate procedures and
                    product labeling. The firm responded within 15 working days and requested
                    information about how to come into compliance. The FDA provided educational
                    materials and training. Upon reinspecting the firm 5 months after the warning
                    letter, FDA found no violations.

           <	       A district office issued a warning letter to a firm that had failed to report several
                    recalls and product withdrawals. The firm provided FDA with extensive
                    documentation on the recalls and changed its policies to avoid repeating the same
                    violation in the future. Upon reinspecting the firm, FDA found that, although most
                    of the violations had been corrected, some remained and new ones appeared. The
                    investigator issued a new FDA-483. Based on the firm’s progress and
                    cooperation, FDA determined that additional compliance action was not necessary
                    pending the firm’s next routine inspection.

           <	       A district office issued a warning letter to a firm that had advertised a product as
                    “FDA-approved.” Within a few days of receiving the warning letter, the firm
                    submitted a revised advertisement that did not include that phrase.

          The threat of subsequent compliance actions or other remedies enhances the value of the
          warning letter. For example, FDA may refuse to take action on 510(k) or premarket
          approval applications or refuse to issue export certificates until firms correct warning
          letter violations. In addition, the publicity associated with a warning letter--and a firm’s
          failure to correct the violations--can cause major harm to the firm’s reputation and
          revenue.




Warning Letters--Timeliness and Effectiveness         11                                 OEI-09-97-00381
The warning letter’s effectiveness depends on conscientious
follow-up
The FDA completed appropriate follow-up in approximately 97 percent of cases

          If investigators feel it is necessary, FDA may reinspect a firm to verify that the warning
          letter violations have been corrected. If more appropriate, districts may conduct other
          follow-up, such as soliciting documentation or meeting with industry officials to address
          compliance issues. In some cases, such as with tissue residue violations, FDA does not
          require any follow-up except to ensure that the firm responds to the warning letter.

          In almost all of the cases that we reviewed, FDA conducted some type of follow-up
          activity to assess firm compliance. The following table illustrates the types of follow-up
          district offices conducted in 1996 and the result of that follow-up:

                              FDA follow-up activities confirm firms’ compliance

            Follow-up Method                         Result                FDA Action             Percentage

      Reinspection                              Observations noted     New FDA-483 issued         30 percent

      Reinspection                              Observations noted   New warning letter issued     1 percent

                                                                     Other compliance action
      Reinspection                              Observations noted                                 5 percent
                                                                             taken

      Reinspection                              Observations noted       No action taken           3 percent

                                                 No observations
      Reinspection                                                             N/A                20 percent
                                                     noted

      Documentation of compliance
                                                      N/A                      N/A                12 percent
      submitted by firm

      No follow-up per FDA
      guidelines (other than to
                                                      N/A                      N/A                23 percent
      assure written response from
      firm)

      Other follow-up occurred
                                                      N/A                      N/A                 3 percent
      (meetings, phone calls)

      No follow-up although it
                                                      N/A                      N/A                 3 percent
      appears to be warranted


          Follow-up inspections frequently uncover other violations, but FDA rarely has to initiate
          compliance actions. As this table shows, FDA reinspected almost 60 percent of the firms
          that received warning letters. Of the firms that FDA reinspected, investigators found
          violations--repeat or new--in approximately two-thirds of the cases. Despite the discovery

Warning Letters--Timeliness and Effectiveness                 12                                 OEI-09-97-00381
          of new violations, FDA rarely determined that another warning letter or a more serious
          compliance action was warranted. As the table shows, and the following chart illustrates,
          new violations are most frequently cited by using an FDA-483:

                                     New warning letters are the least common
                                        outcome of a follow-up inspection




          District office staff were not concerned that they found new or uncorrected violations
          during two-thirds of reinspections. In almost all of these cases, investigators were
          satisfied with the firm’s progress or correction of other warning letters violations. They
          did not believe that a more serious compliance action, such as a seizure, was necessary.
          According to district office staff, some warning letters cite numerous violations, and
          investigators often believe that issuing an additional warning letter or initiating a more
          serious compliance action would not help assure compliance. This is particularly true if a
          firm has responded to the warning letter and indicates that it is willing to correct all
          violations.

Follow-up inspections generally occur long after the warning letter is issued

          When FDA conducts a follow-up inspection, it occurs 278 days after the warning letter is
          issued, on average. Almost one-quarter of follow-up inspections are delayed by more than
          a year. The timing of the follow-up inspection depends on multiple factors:

           <        Workload: District offices frequently must shift their priorities to meet agency
                    demands and goals. Follow-up inspections sometimes are delayed in order to
                    focus on other priorities.

           <        Type of violation: If the district office decides to conduct a follow-up inspection,
                    the timing depends on whether the violations are easy to correct or require
                    significant time to correct (e.g., developing new manufacturing guidelines).

Warning Letters--Timeliness and Effectiveness          13                                OEI-09-97-00381
           <	       Severity of violation: If an inspection uncovers very severe violations, a district
                    office might decide to conduct an immediate follow-up inspection. On the other
                    hand, if the violations are less grievous, the district office may simply verify
                    corrections during its next routine inspection of the firm.

           <	       Number of violations: District offices sometimes allow a firm extra time to correct
                    multiple violations prior to conducting a follow-up inspection.

           <	       Firm history: District offices keep a close watch on firms with a history of
                    violations. These firms are more likely to receive a follow-up inspection soon after
                    the warning letter is issued.



Warning letters are not always timely
Headquarters rarely reviews and concurs with warning letter recommendations
within FDA’s 15-day guideline

          The FDA has a goal of 15 days for completion of headquarters warning letter review.
          However, less than 2 percent of letters that undergo headquarters review are completed
          within this time frame. In one case, review required well over one year, and, on average,
          review takes 121 days to complete. According to some district office staff, warning letters
          are a low priority in some of the centers. Districts believe that the centers have too much
          higher priority work to complete review within 15 days. One district office noted that all
          FDA time frames are difficult to meet, especially for the centers. The following table
          illustrates how long it took for the centers to complete their review of warning letters that
          were approved for issuance in 1996:




Warning Letters--Timeliness and Effectiveness        14                                  OEI-09-97-00381
                                Almost all center reviews of 1996 warning letters
                                             took more than 30 days




          None of FDA’s district offices credited the centers with consistently meeting 

          FDA’s guideline. District office staff understand the need for more time when the warning

          letter concerns a technical or complicated issue but described other instances where delays

          were unwarranted. District office staff stated that they frequently have to call the centers

          to determine the status of a warning letter recommendation.


          The Center for Food Safety and Applied Nutrition received the most criticism for being

          “slowest,” and complicating the process with multiple layers of review. The other centers

          did not fare well either in our survey. Most district offices stated that none of the centers

          consistently met the 15-day guideline to approve warning letter recommendations or the

          30-day guideline to justify nonconcurrence.


Even when headquarters does not review warning letters, it frequently takes
district offices more than a month to issue a warning letter

          The Regulatory Procedures Manual states that district offices should submit warning letter

          recommendations to headquarters or issue warning letters to firms within 15 days of the

          end of an inspection. Excluding those cases where headquarters review was required, the

          average delay between the end of inspection and the date of the warning letter is

          38 days, with about 6 percent requiring more than 90 days:





Warning Letters--Timeliness and Effectiveness          15                              OEI-09-97-00381
                                   Almost half of district offices warning letters
                                          took 30 days or more to issue




Firms reported that FDA was slow in issuing the warning letter after an inspection
was completed but diligent in responding to their requests for information

          Approximately 40 percent of firms reported that FDA was not timely in issuing their
          warning letter. As a result, they were more likely to be surprised by receipt of the warning
          letter and less likely to believe that the warning letter was appropriate. Firms noted that
          they frequently have corrected all of the violations noted in the FDA-483 weeks or months
          before receiving a warning letter. Consequently, they believe that they are being unduly
          and inappropriately punished.

          Firms were pleased by their district office’s responsiveness to inquiries, however.
          Approximately three-quarters of the firms reported that FDA was timely in responding to
          their inquiries and following up with them.



Discrepancies between headquarters and district office data
on warning letters are extensive
          We found significant differences between the headquarters warning letter database and the
          files we reviewed in the district offices. Almost 20 percent of the warning letters that we
          reviewed in the district offices were not accounted for in the headquarters database.
          These warning letters did not appear in the 1995 or 1997 warning letter databases either.




Warning Letters--Timeliness and Effectiveness            16                          OEI-09-97-00381
          In addition, district offices were unable to provide us with all of the warning letters that
          appeared in the 1996 headquarters database. Approximately 16 percent of the warning
          letters in the headquarters database did not appear in the district offices’ files.

          To corroborate our on-site findings, we asked the 15 other district offices to provide us
          with the number of warning letters that they issued from 1994 to 1997 and compared their
          responses to the headquarters database. The numbers matched less than 10 percent of the
          time.




Warning Letters--Timeliness and Effectiveness       17                                  OEI-09-97-00381
                               RECOMMENDATION

          Despite questions about annual decreases in warning letters, discrepancies in district office
          warning letter volume, and the overall effectiveness of warning letters, the findings in both
          of our reports indicate that the warning letter is one of several effective tools that district
          offices use to achieve compliance with Federal laws and regulations. In our companion
          report, we recommend that FDA continue to improve relations and communication with
          industry and consider issuing guidance that would authorize district offices to use FDA-
          483s and meetings to achieve compliance in lieu of warning letters. Based on the findings
          in this report, FDA should increase its effectiveness by:

           <	       improving the timeliness of the warning letter process and follow-up activities
                    and

           <        revamping its warning letter data collection system to ensure accuracy.

          The delay between completing a firm’s inspection and issuing a warning letter--which can
          be months or more than a year--lessens the effectiveness of the warning letter. The
          inaccuracy of FDA’s warning letter database may contribute to poor communication
          between the centers and districts, or it could be a sign that communication is already a
          problem. Also, since FDA is required to make warning letters available through the
          Freedom of Information Act and posts them on the Internet, correct warning letter data is
          of primary concern.

          We received comments on the draft report from FDA in which the agency concurred with
          our recommendation. Where appropriate, we have made revisions in the report in
          response to these comments. We also have responded to several of FDA’s comments in
          the appendix.




Warning Letters--Timeliness and Effectiveness       18                                  OEI-09-97-00381
                                                  APPENDIX A


                                                AGENCY COMMENTS





Warning Letters--Timeliness and Effectiveness          19          OEI-09-97-00381
Warning Letters--Timeliness and Effectiveness   20   OEI-09-97-00381
Warning Letters--Timeliness and Effectiveness   21   OEI-09-97-00381
Warning Letters--Timeliness and Effectiveness   22   OEI-09-97-00381
Warning Letters--Timeliness and Effectiveness   23   OEI-09-97-00381
                                                APPENDIX B


                          OIG RESPONSE TO AGENCY COMMENTS

          We offer the following additional analysis based on FDA’s comments.

          At the time that this inspection began, there were six regional offices and 21 district
          offices as we stated in the draft report. The Mid-Atlantic and Midwest regional offices
          have since merged into the Central regional office, and the Buffalo district office has
          merged with the Brooklyn district office.

          The seafood industry was the only industry in our sample that has a seasonal component.
          Analysis of the firms in our sample that market seafood shows that either there was no
          follow-up inspection conducted (most often because it was a “failure-to-hold” violation)
          or that reinspection was actually more timely than the average. Hence, reinspection delays
          resulting from the seasonal nature of the industry had either no effect or a diminishing
          effect on the 278-day average that we reported.

          We did not intend to place any value judgments on the number of warning letters
          produced by a district. Our purpose in identifying these extremes is merely to indicate the
          wide variation in warning letter production that exists among the districts.

          Analysis of FDA data indicates that while both the numbers of inspections and warning
          letters decreased from 1994 to 1997 (the range used for our statements in the reports),
          inspections decreased by 3.6 percent while warning letters fell 39 percent. In other terms,
          in 1994, about 9.1 inspections conducted yielded 1 warning letter. In 1997, the rate was
          12.2 inspections per warning letter.

          We agree that the prevalence of importers in a district could contribute to the variation in
          number of warning letters issued and have clarified their importance in the companion
          report entitled FDA Warning Letters: Trends and Perspectives.

          The FDA’s opinion that firms will voluntarily correct violations is highlighted in the
          background section of this report.

          Several districts indicated that increased familiarity with FDA regulations leads to better
          industry compliance. We have clarified this point in the companion report.

          Our recommendation was not intended to discourage the use of warning letters, but rather
          to encourage FDA to issue guidance which would allow a district office to select the tools
          it feels are most effective in achieving compliance in a given situation.


Warning Letters--Timeliness and Effectiveness       24                                 OEI-09-97-00381
          The medical device Warning Letter Pilot will allow FDA to use a firm’s response to an
          FDA-483 or an untitled letter to preempt a warning letter for certain segments of the
          device industry. More information can be found on FDA’s website or in the Federal
          Register for August 27, 1998.

          With respect to FDA’s comment on “Page 11, last paragraph after table” of the draft
          report (the table and paragraph now appear on page 12), we note that the paragraph
          below the pie chart on page 13 shows that despite the discovery of repeat or new
          violations on reinspection, the warning letter was still effective. As stated there,
          investigators believed that the violations found on reinspection were minor and that firms
          had made satisfactory progress towards compliance.




Warning Letters--Timeliness and Effectiveness     25                                 OEI-09-97-00381
